                      U.S. Department of Agriculture

                          Office of Inspector General
                                     Northeast Region




            Audit Report

    Application Control Review of the
      Food and Nutrition Service’s
Store Tracking and Redemption System II




                           Report No. 27501-02-Hy
                                       March 2008
        UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250


March 31, 2008


REPLY TO
ATTN OF:      27501-02-Hy

TO:           Roberto Salazar
              Administrator
              Food and Nutrition Service

ATTN:         Lael Lubing
              Director
              Grants Management Division
              Food and Nutrition Service

FROM:         Robert W. Young /s/
              Assistant Inspector General
               for Audit

SUBJECT:      Application Control Review of the Food and Nutrition Service’s Store Tracking
              and Redemption System II


This report presents the results of our Application Control Review of the Food and Nutrition
Service’s Store Tracking and Redemption System II.              Your written response, dated
March 6, 2008, is included as Exhibit A with excerpts of your response and the Office of
Inspector General’s (OIG) position incorporated into the Findings and Recommendations section
of the report, where applicable.

We have reached management decision for Recommendations 1, 4, 6, 8, and 9. Please follow
your agency’s internal procedures in forwarding information on final action to the Office of the
Chief Financial Officer.

In order to achieve management decision on Recommendations 2, 3, 5, 7, and 10, please furnish
a reply within 60 days describing the information requested in the OIG position section of the
report. Please note that Departmental Regulation 1720-1 requires a management decision to be
reached on all recommendations within a maximum of 6 months from report issuance and
completion of final action within 12 months of management decision.

We appreciate the courtesies and cooperation extended to us by members of your staff during
this audit.
Executive Summary
Application Control Review of Food and Nutrition Service’s Store Tracking and
Redemption System II (Audit Report No. 27501-02-Hy)

Results in Brief                       The Food and Nutrition Service (FNS) uses the Store Tracking and
                                       Redemption System II (STARS II) to store information on retailers 1 that
                                       redeem benefits as part of the Food Stamp Program (FSP). STARS II also
                                       supports the benefit redemption activity by storing redemption data used for
                                       evaluating individual store activity. In fiscal year (FY) 2006, STARS II
                                       tracked $30 billion in food stamp redemptions and the system currently
                                       manages over 160,000 authorized FSP retailers.

                                       We assessed whether FNS properly documented and accredited the
                                       STARS II application and instituted the necessary controls to ensure that data
                                       in the system were valid, complete, and accurately processed. We also
                                       determined whether STARS II met the security requirements of the Office of
                                       Management and Budget (OMB) Circular No. A-130, Management of
                                       Federal Information Resources and other applicable regulations.

                                       STARS II replaced the STARS mainframe system and received final
                                       certification and accreditation in August 2005. We concluded that FNS
                                       properly documented and accredited STARS II and established adequate
                                       application controls to ensure that the system contained valid, complete, and
                                       accurately processed data. However, we noted several weaknesses that FNS
                                       should address to further strengthen the security of STARS II. During
                                       discussions throughout the audit, FNS agreed that these weaknesses need to
                                       be corrected. FNS needs to: (1) improve security over computer resources,
                                       (2) implement actions agreed to in a prior recommendation regarding
                                       processing access requests, and (3) finalize the contingency plan for the
                                       STARS II primary computer facility, the Benefit Redemption System Branch
                                       (BRSB).

                                       Departmental Manual (DM) 3510-001, Physical Security Standards for
                                       Information Technology (IT) Restricted Space, dated August 2004, requires
                                       the Department of Agriculture (USDA) to protect information resources
                                       through such means as layered physical security and effective security
                                       procedures and administration.

                                       •     FNS did not adequately secure computer resources for STARS II at one
                                             field office and the two computer facilities we visited. For example, we
                                             identified weak controls for monitoring physical access to restricted areas
                                             at the computer backup facility. We also found an unlocked room was
                                             used to store a server and supporting communication equipment in one

1
    Retailers include grocery stores, supermarkets, meal services, farmer’s market, etc.
USDA/OIG-AUDIT No. 27501-02-Hy                                                                                   Page i
                                           field office. Finally, FNS did not cleanse damaged hard drives of
                                           sensitive data before returning the drives to the manufacturer. The data on
                                           the hard drives included personally identifiable information (e.g.,
                                           individual store owner names, addresses, and dates of birth) that was not
                                           encrypted. This occurred because FNS had not implemented the
                                           necessary procedures and controls to identify security weaknesses. As a
                                           result, Information Technology (IT) data and resources are vulnerable to
                                           unauthorized access.
                                      •    FNS did not implement the agreed upon corrective action associated with
                                           a recommendation in our September 2001 report on FNS’ Security Over
                                           IT Resources (Audit Report No. 27099-18-Hy). FNS officials explained
                                           that other funding priorities since 2000 have prevented the agency from
                                           implementing an automated process for system access. Most recently,
                                           homeland security directives have taken priority. As a result, FNS has not
                                           implemented an automated process for approving system access requests.
                                           FNS is currently working with contractors to automate access requests.

                                      •    According to FNS officials, the BRSB did not update its contingency plan
                                           due to staffing shortages. BRSB, within the FNS’ Information
                                           Technology Division, manages the STARS II application. As a result,
                                           FNS’ computer facilities are more susceptible to unknown vulnerabilities,
                                           damage, or unplanned down time in the event of a disaster or unexpected
                                           event. Without updates, FNS has limited assurance that operations can be
                                           recovered in a timely manner.
                                      The Dallas Field Office did not adhere to established procedures for
                                      obtaining supervisory approval before authorizing stores in STARS II. This
                                      procedure provides assurance that STARS II data is accurate. In addition, the
                                      Dallas Field Office did not follow procedures 2 for reviewing system data for
                                      significant changes. The Officer-in-Charge (OIC) cited efficiencies in having
                                      one person enter store data in STARS II and authorize the store’s approval
                                      before the OIC performs the supervisory review of the information. The OIC
                                      also stated that reviewing STARS II data for significant changes was
                                      redundant. This procedure is not redundant because it provides a second party
                                      review to ensure that only appropriate stores are authorized. As a result, FNS
                                      has reduced assurance that stores are appropriately authorized and reinstated
                                      to operate in the FSP.

                                      In February 2007, we identified that FNS had not monitored its vulnerability
                                      scans since it implemented the FNS Universal Telecommunications Network
                                      (UTN) 3 in August 2006. DM 3530-001, USDA Vulnerability Scans

2
    The procedures are detailed in chapters 3 and 6 of the STARS Users Manual.
3
    The purpose of the FNS UTN is to incorporate the FNS wide area network into the USDA UTN. UTN is designed to include not only the USDA Office
    of the Chief Information Officer backbone, but to expand to accommodate unique needs of each agency. UTN supports multiple virtual private
    networks which allow each agency (including FNS) to keep its traffic completely isolated and set up unique virtual networks over the shared physical
    structure.
USDA/OIG-AUDIT No. 27501-02-Hy                                                                                                               Page ii
                   Procedures, dated July 20, 2005, requires USDA agencies to use scanning
                   software to scan networks, systems and servers, on a monthly basis for all
                   existing and new networks, systems, servers, and desktops. Although FNS
                   received notification that the scanning was performed, a firewall in the UTN
                   prevented FNS from receiving the results of the scanning. During this time
                   period there were no reported security incidents. However, STARS II was
                   vulnerable to illegal and malicious activity or exploitation by internal and
                   external sources. FNS addressed this weakness at the time we brought it to
                   their attention. Accordingly, we are making no additional recommendations.

Recommendations
In Brief           FNS needs to (a) develop and implement controls to ensure only authorized
                   individuals have physical access to restricted areas at the STARS II backup
                   facility, (b) require the field office to mitigate the physical security weakness
                   identified, and (c) develop and implement controls to ensure sensitive data
                   are removed from hard drives before returning them to the manufacturer. In
                   addition, FNS should implement an automated process for processing system
                   access requests and approval and should update the BRSB contingency plan.
                   Finally, FNS should instruct the Dallas Field Office to follow established
                   procedures for authorizing stores in STARS II and reviewing system data for
                   significant changes and ensure this instruction is followed.

Agency Response
                   FNS generally agreed with the report’s 10 recommendations. We have
                   incorporated FNS’ response into the Findings and Recommendations section
                   of this report, along with OIG position. FNS’ response, dated March 6, 2008,
                   is included as exhibit A.

OIG Position
                   Based on FNS’ response, we were able to reach management decisions on
                   Recommendations 1, 4, 6, 8, and 9. Management decisions on
                   Recommendations 2, 3, 5, 7, and 10 can be reached once FNS has provided
                   us with the additional information outlined in the report section, OIG
                   Position.




USDA/OIG-AUDIT No. 27501-02-Hy                                                              Page iii
Abbreviations Used in This Report

AO                      Authorizing Official
BRSB                    Benefit Redemption System Branch
DM                      Departmental Manual
EBT                     Electronic Benefit Transfer
FNCS                    Food, Nutrition, and Consumer Services
FNS                     Food and Nutrition Service
FSP                     Food Stamp Program
FY                      Fiscal Year
HSPD-12                 Homeland Security Presidential Directive 12
ITD                     Information Technology Division
IT                      Information Technology
NIST                    National Institute of Standards and Technology
OCFO                    Office of the Chief Financial Officer
OIC                     Officer-in-Charge
OIG                     Office of Inspector General
OMB                     Office of Management and Budget
SOP                     Standard Operating Procedures
SP                      Special Publication
STARS II                Store Tracking and Redemption System II
SWRO                    Southwest Regional Office
UTN                     Universal Telecommunications Network
USDA                    U.S. Department of Agriculture
WIC                     Special Supplemental Nutrition Program for Women, Infants, and
                        Children




USDA/OIG-AUDIT No. 27501-02-Hy                                                           Page iv
Table of Contents

Executive Summary .................................................................................................................................i

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1 Security Improvements Needed........................................................................................ 3

        Finding 1…….. ............................................................................................................................... 3
                           Recommendation 1 .......................................................................................... 6
                           Recommendation 2 .......................................................................................... 7
                           Recommendation 3 .......................................................................................... 8
                           Recommendation 4 .......................................................................................... 8
                           Recommendation 5 .......................................................................................... 8
                           Recommendation 6 .......................................................................................... 9

    Section 2 Access Request Process Needs Improvement................................................................ 10

        Finding 2 ....................................................................................................................................... 10
                                 Recommendation 7 ........................................................................................ 11
                                 Recommendation 8 ........................................................................................ 11

    Section 3 Contingency Planning Needs Improvement.................................................................. 12

        Finding 3 ....................................................................................................................................... 12
                                 Recommendation 9 ........................................................................................ 12

    Section 4 Supervisory Review of STARS II Data Needs Improvement ...................................... 14

        Finding 4 ....................................................................................................................................... 14
                                 Recommendation 10 ...................................................................................... 15

Scope and Methodology........................................................................................................................ 17

Exhibit A – Agency Response .............................................................................................................. 19




USDA/OIG-AUDIT No. 27501-02-Hy                                                                                                                   Page v
Background and Objectives
Background                             The Food and Nutrition Service (FNS) provides needy families better access
                                       to food and a more healthful diet. The Food Stamp Program (FSP) is one of
                                       the primary Federal food assistance programs FNS uses to accomplish its
                                       mission. FSP recipients receive their program benefits through electronic
                                       benefits transfer. Once a month, each participating household receives a
                                       benefit allotment determined by the family size, household income, and other
                                       related factors. Recipients can use their benefits to pay for food items at
                                       participating retailers. Recipients use cards much like a debit card. By
                                       providing a personal identification number, recipients gain access to benefits
                                       through point of sale terminals located at approved food retailers.

                                       The Store Tracking and Redemption System II (STARS II) stores
                                       information on the authorization, monitoring, investigation, withdrawal, and
                                       disqualification of retailer organizations that redeem food stamp benefits.
                                       STARS II also supports the benefit redemption activity by storing redemption
                                       data used for evaluating individual store activity. STARS II is located within
                                       FNS’ Information Technology Division (ITD), Benefit Redemption Systems
                                       Branch (BRSB).

                                       STARS II replaced the STARS mainframe system and received final
                                       certification and accreditation in August 2005. STARS II is a web-based
                                       system, utilizing updated client server technology and provides user friendly
                                       access. In fiscal year (FY) 2006, STARS II tracked $30 billion in food stamp
                                       redemption activity. The system currently manages over 160,000 authorized
                                       FSP retailers. STARS II users include FNS officials responsible for FSP
                                       administration, Office of Inspector General’s (OIG) Office of Investigations,
                                       Electronic Benefit Transfer (EBT) processors 4 and State agencies
                                       administering the FSP and the Special Supplemental Nutrition Program for
                                       Women, Infants, and Children (WIC).

                                       STARS II interfaces with other applications and systems to provide the
                                       following types of information.

                                       •     EBT processors and States depend on STARS II to provide them with
                                             updated information on currently authorized stores.

                                       •     FNS users depend on STARS II to update their store list for the
                                             Anti-fraud Locator using the EBT Retailer Transactions system; to



4
    Generally, States award contracts to private sector companies to develop and operate their EBT systems. These companies are usually financial
    institutions or other organizations that already handle debit and credit card systems or electronic funds transfer activities. However, the States remain
    financially liable to the Federal Government for actions of their EBT processors.

USDA/OIG-AUDIT No. 27501-02-Hy                                                                                                                 Page 1
                       manage the retailer side of the FSP at the National, Regional, and field
                       levels; and to provide data to respond to requests for information.

                   •   Contractors depend on STARS II to inform them of store visit
                       information and scheduling.

                   •   OIG users depend on STARS II for FSP investigatory needs.

                   •   WIC program administrators rely on STARS II information to keep
                       current on the status of authorized stores. WIC and FSP have a reciprocal
                       agreement concerning disqualified stores.

Objectives         Our objectives were to assess whether STARS II has been properly
                   documented and accredited; determine if application controls assure that data
                   are valid, complete, and accurately processed; and determine if STARS
                   II meets the security requirements of Office of Management and Budget
                   (OMB) Circular No. A-130, Management of Federal Information Resources
                   and applicable regulations.

                   To accomplish these objectives, we interviewed FNS officials; reviewed
                   applicable policies, procedures, and records; and visited the STARS
                   II primary and backup computer facilities and two FNS field offices.




USDA/OIG-AUDIT No. 27501-02-Hy                                                         Page 2
Findings and Recommendations
Section 1 Security Improvements Needed

Finding 1……..
                                  FNS did not adequately secure computer resources for STARS II at one field
                                  office and the two computer facilities we visited. For example, we identified
                                  weak controls for monitoring physical access to restricted areas at the
                                  computer backup facility. Also, we found that an unlocked room was used to
                                  store a server and supporting communication equipment in one field office.
                                  Finally, FNS did not cleanse damaged hard drives of sensitive data before
                                  returning the drives to the manufacturer. This occurred because FNS had not
                                  implemented the necessary procedures and controls to identify security
                                  weaknesses and ensure sensitive data is safeguarded. As a result, IT resources
                                  are vulnerable to unauthorized access.

                                  Departmental Manual (DM) 3510-001, Physical Security Standards for IT
                                  Restricted Space, August 2004, requires the Department of Agriculture
                                  (USDA) to protect information resources through such means as layered
                                  physical security and effective security procedures and administration.
                                  National Institute of Standards and Technology (NIST) Special Publications
                                  (SP) are a collection of documents used to assess the adequacy of system
                                  controls, and ensure compliance with established policies and operational
                                  procedures. 5

                                  We reviewed physical security controls over STARS II at the primary and
                                  backup facilities and at two field offices. The primary and back-up facilities
                                  house the STARS II application and its supporting configuration. Field
                                  offices initiate updates to the status of stores participating in the FSP. We
                                  identified weaknesses in the controls FNS used to secure facilities where
                                  STARS II resources are stored and used and to ensure sensitive data are
                                  safeguarded.

                                  Physical Security

                                  FNS’ controls were not effective to ensure that only authorized individuals
                                  were permitted physical access to restricted areas at the STARS II computer
                                  backup facility. The automated access system has been in place for several
                                  years and FNS acknowledged that the system is cumbersome and requires
                                  some work to produce the access list, by person and room.

                                  • FNS granted access to its restricted computer supply room to a group of
                                     individuals identified only as “ITD Work Crew.” This group entered the

5
    OMB Circular A-130, Management of Federal Information Resources, requires agencies to apply OMB policies and NIST guidance to achieve
    adequate security.

USDA/OIG-AUDIT No. 27501-02-Hy                                                                                               Page 3
                       restricted room nine times during a 2 – day period; however, the specific
                       individuals who entered could not be identified. FNS created group
                       access for convenience. FNS agreed that the best solution was eliminating
                       group access and identifying access individually, by name. NIST
                       SP 800-53 Revision 1, Recommended Security Controls for Federal
                       Information Systems (NIST SP 800-53, Revision 1) recommends that the
                       organization develop and keep a current list of personnel with authorized
                       access to the facility where the information system resides and issue
                       appropriate authorization credentials.

                   •   FNS did not correctly program access control cards allowing
                       unauthorized individuals to enter restricted areas. For example, a
                       contractor had access to the backup computer facility without
                       authorization and a card keyed for OIG staff use during fieldwork
                       inappropriately granted access to a restricted contractor work area. We
                       also identified a contractor who left in December 2006 but whose access
                       rights were not removed until February 2007. FNS was unaware of the
                       contractor’s departure until after our inquiry because the departure was
                       not communicated to FNS. FNS acknowledged that access should not
                       have been granted in these cases and attributed these errors to incorrect
                       system programming and mistakes in data entry. NIST SP 800-53
                       Revision 1, recommends that an organization issue appropriate
                       authorization credentials and encourages the prompt removal of personnel
                       no longer requiring access, which mirrors guidance provided in
                       DM 3510-001, Section 3d(2).

                   •   The automated access control system has no audit trail for cancelled
                       badges. FNS stated the current system is not designed to retain historical
                       information, including the start date, expiration date, deletion date, and
                       changes to access. Upon deletion, all records of that person are deleted.
                       DM 3510-001, Section 3c(11) explains that access to the computer room
                       will be electronically controlled and have the capability of providing an
                       audit trail.

                   •   FNS uses a manually prepared access list for the STARS II backup
                       facility and computer supply room because the automated access system
                       cannot readily generate an access list by door number. Our review of the
                       current list, dated February 16, 2007, identified errors. For example, five
                       contractors and the “ITD Work Crew” were inappropriately omitted from
                       the list. In addition, the list did not identify which of the facility’s two
                       rooms the individuals were authorized to access. NIST SP 800-53,
                       Revision 1, recommends that the organization develop and keep a current
                       list of personnel with authorized access to the facility.

                   •   FNS did not maintain records of individuals with access to the
                       STARS II backup facility. Copies of access authorizations were not
USDA/OIG-AUDIT No. 27501-02-Hy                                                           Page 4
                                              available for 36 of 54 individuals on the access list for the
                                              STARS II backup facility. According to FNS, they did not update their
                                              access authorizations when a new authorization procedure was
                                              implemented in 2005. This procedure utilized an e-mail request system to
                                              grant access to restricted areas. NIST SP 800-53, Revision
                                              1, recommends that the organization develop and keep a current list of
                                              personnel with authorized access to the facility where the information
                                              system resides.

                                        •     FNS did not have documentation to support its quarterly review of the
                                              access list to the STARS II backup facility and the computer supply
                                              room. FNS stated that the review was completed through a review of an
                                              electronic file, but FNS did not annotate the file with evidence of review.
                                              A quarterly review is required by DM 3510-001, Section 3d(6).

                                        At both the primary and back-up STARS II facility, the visitor’s log did not
                                        identify the name of the visitor’s escort. Officials at both the primary and
                                        back-up facilities agreed with our concerns and stated that they would change
                                        the visitor’s log form to identify the escort. NIST SP 800-53, Revision
                                        1, requires the organization to maintain visitor access records to the facility
                                        where the information system resides, including the name and organization of
                                        person visited.

                                        We identified two significant physical security weaknesses in one field
                                        office. Although this field office was located in a Federal office building,
                                        with its own access control measures, the public is granted access to the
                                        office for periodic EBT training.

                                        •     Removable door hinges faced an exterior hallway which provided the
                                              opportunity to access the field office. The public used this door to access
                                              the office for periodic EBT training. DM 3510-001, Physical Security
                                              Standards for IT Restricted Space, August 2004, section 3c(16), requires
                                              that exterior doors have either interior hinges or exterior hinges with
                                              non-removable pins.

                                        •     An unlocked room was used to store a server and supporting
                                              communication equipment for STARS II access. The door to this room
                                              had a cipher lock that was disabled with tape on both the door latch and
                                              the strike plate. 6 NIST SP 800-12, An Introduction to Computer Security:
                                              The NIST Handbook, explains most users need to understand good
                                              computer security practices such as protecting the physical area and
                                              equipment, including locking doors.


6
    Subsequent to our visit, the field office installed a combination lock on the door.

USDA/OIG-AUDIT No. 27501-02-Hy                                                                                 Page 5
                                     Sensitive Data

                                     FNS sent damaged hard drives to the manufacturer without removing
                                     sensitive data because the agency did not have the necessary equipment to
                                     cleanse the drives. The data on the hard drives included individual personally
                                     identifiable information (e.g., store owner names, addresses, and dates of
                                     birth) that was not encrypted. Once we brought this to FNS’ attention, the
                                     agency ceased returning the hard drives to the manufacturer. The Privacy Act
                                     of 1974 7 requires the protection of this type of information. The hard drives
                                     also included social security numbers; however, these data were encrypted.
                                     FNS received free replacement hard drives from the manufacturer for
                                     returning the damaged hard drives.

                                     FNS’ contract with the manufacturer did not require the manufacturer to
                                     remove data from the hard drives. FNS stated that the manufacturer
                                     refurbished and re-sold the hard drives. This issue was identified and reported
                                     in the Departmental Security Review, performed by USDA’s Office of Chief
                                     Information Officer in April 2007. FNS agreed that a computer forensic
                                     expert could recover the individual data from the hard drives after the drives
                                     had left FNS’ control. FNS agreed with this issue and ordered degaussing
                                     equipment to remove all data from the hard drives. Until the degaussing
                                     equipment arrives, FNS plans to destroy the damaged hard drives, instead of
                                     returning them to the manufacturer.

                                     FNS needs to implement the necessary procedures and controls to improve
                                     the security of computer resources for STARS II at the field office and two
                                     computer facilities that we visited. These improvements need to address
                                     weaknesses in controls FNS used to secure facilities where
                                     STARS II resources are stored and used and to ensure sensitive data are
                                     safeguarded.

Recommendation 1
                                     Develop and implement controls to ensure only authorized individuals have
                                     access to restricted areas. These controls, at a minimum, should: (a) address
                                     how individuals are authorized access to restricted areas, (b) prohibit
                                     providing access to groups of individuals, and (c) detail procedures for timely
                                     revising and deleting authorizations.

                                     Agency Response.

                                     The Food, Nutrition, and Consumer Services (FNCS) Information Systems
                                     Security Guidelines and Procedures Handbook (FNCS-702) was published
                                     and distributed to all users on January 31, 2008. Section 700 of the
7
    The Privacy Act of 1974 requires that Federal agencies not disclose any record of information about an individual by any means of communication to
    any person, or to another agency, except pursuant to a written request by, or with the prior written consent of, the individual to whom the record
    pertains.

USDA/OIG-AUDIT No. 27501-02-Hy                                                                                                           Page 6
                   Handbook, Guidance on IT Restricted Space and Physical Access
                   Control, clearly defines requesting, deleting, and auditing access to restricted
                   space.

                   An FNS-767, FNS IT Restricted Space Access Control Form, will be
                   completed by March 14, 2008, and approved for each individual with access
                   to IT restricted space. Visitors must sign in and be escorted at all times by an
                   individual who has a completed and approved FNS- 767 on file.

                   As of March 17, 2008, the Property Management Branch will maintain all
                   user access requests to IT restricted space by generating weekly reports of
                   user access and performing audits for unauthorized access; remove access for
                   users who have been inactive for 90 days; remove all access for users who
                   have been terminated: FNCS employees, contractors and others who are no
                   longer at FNCS; ensure that all user access requests to IT restricted spaces
                   meet the appropriate security standards required to receive access; block
                   access to IT restricted space for those individuals who lack the required
                   security authorization; and perform user recertification quarterly.

                   OIG Position.

                   We accept FNS’ management decision.

Recommendation 2
                   Develop and implement a system for generating an accurate list of
                   individuals who have access to restricted physical areas. This system should
                   provide an audit trail with historical data on how individual authorizations
                   were revised or deleted.

                   Agency Response.

                   MDI software, by virtue of design, cannot provide this type of information
                   automatically. At this time, FNS can generate the OIG requested files
                   manually, FNS will be implementing Departmental issued Homeland
                   Security Presidential Directive-12 (HSPD-12) compliant software.
                   HSPD-12 card readers have been installed in preparation for the new
                   software.

                   OIG Position.

                   To reach management decision, FNS needs to state whether the new access
                   system required by HSPD-12 will provide the automated access list and audit
                   trail lacking in the current MDI system. In addition, FNS needs to provide the
                   expected timeframes for implementing the HSPD-12 compliant software.



USDA/OIG-AUDIT No. 27501-02-Hy                                                           Page 7
Recommendation 3
                   Develop and implement controls to ensure that the quarterly review of the
                   access list to restricted rooms is documented.

                   Agency Response.

                   The FNCS-702 Handbook was published and distributed to all users on
                   January 31, 2008. Section 700 of the Handbook, Guidance on IT Restricted
                   Space and Physical Access Control, clearly defines requesting, deleting,
                   and auditing access to IT Restricted Space.

                   Please see FNS Response for Recommendation 1.

                   OIG Position.

                   We agree with FNS’ proposed corrective action, however, to reach
                   management decision, FNS needs to state whether the controls to ensure the
                   quarterly reviews are documented is included in Section 700 of the
                   FNCS-702 Handbook.

Recommendation 4
                   Revise the visitor logs to identify the visitor’s escort.

                   Agency Response.

                   The Visitor Log was modified in August 2007 to include visitor escort in
                   Minneapolis and Alexandria prior to completion of the OIG audit.

                   OIG Position.

                   We accept FNS’ management decision.

Recommendation 5
                   Require the field office to mitigate the physical security weaknesses
                   identified (e.g., properly locking the computer room and ensuring that
                   exterior door hinges impede access to the office).

                   Agency Response.

                   As of February 27, 2008, the physical security requirements noted in the
                   recommendation have been implemented in the computer rooms in
                   Minneapolis and Alexandria that house STARS server components. There are
                   no STARS server components or computer rooms in any FNS Field Office.




USDA/OIG-AUDIT No. 27501-02-Hy                                                      Page 8
                   OIG Position.

                   While there are no STARS II server components or computer rooms in FNS
                   field offices, the field offices provide support for managing the benefit
                   redemption function, and STARS provides automated support for this
                   function. The field office could be compromised because an unlocked room
                   was used to store a server and supporting communication equipment for
                   STARS II access. In addition, removable door hinges faced an exterior
                   hallway which provided opportunity to access the field office. The public
                   used this door to access the office.

                   To reach management decision, FNS needs to require the field office to
                   mitigate the physical security weaknesses identified.

Recommendation 6
                   Develop and implement controls to ensure that sensitive data are removed
                   from damaged hard drives before these drives are returned to the
                   manufacturer.

                   Agency Response.

                   As of January 31, 2008, FNS had implemented procedures to ensure that all
                   equipment is degaussed before being disposed of. FNCS-702 Handbook,
                   Section 1542, SDLC Phases and Detailed Security Requirements for each
                   Phase, Part 5c and 5d, covers degaussing.

                   FNS has procured [                                  ], to ensure that
                   sensitive data are removed from damaged or excess hard drives. All
                   equipment is degaussed before being disposed of.


                   OIG Position.

                   We accept FNS’ management decision.




USDA/OIG-AUDIT No. 27501-02-Hy                                                     Page 9
Section 2 Access Request Process Needs Improvement

Finding 2
                                     FNS did not implement the agreed upon corrective action associated with a
                                     recommendation in our September 2001 report on FNS’ Security Over IT
                                     Resources (Audit Report No. 27099-18-Hy). FNS officials explained that
                                     other funding priorities since 2000 have prevented the agency from
                                     implementing an automated process for system access. Most recently,
                                     homeland security directives have taken priority. As a result, FNS had not
                                     implemented an automated process for approving system access requests.
                                     FNS is currently working with contractors to automate access requests.

                                     In our prior report, we recommended that FNS establish controls to ensure
                                     the security office maintains and utilizes a master list of current users by
                                     system. In response, FNS agreed to implement an automated process for
                                     computer access requests for all FNS systems, to be implemented by
                                     December 31, 2001. The automated process will be based on the Form
                                     FNS-674, Computer System Access Request, which is currently still in use.

                                     FNS reported that implementing the automated system has been part of its
                                     plans since 2000, but due to funding issues, it did not occur. The most recent
                                     funding priority was the completion of Homeland Security Presidential
                                     Directive 12 (HSPD-12), Policy for a Common Identification Standard for
                                     Federal Employees and Contractors. 8 Currently, FNS has funding for the
                                     automated process and, as of June 2007, FNS was working with contractors
                                     to test the new system. As of January 2008, the new system had not been
                                     implemented.

                                     FNS Handbook 702, FNS Information Systems Security Standards and
                                     Procedures, June 2002, requires the use of Form FNS-674, Computer System
                                     Access Request, for all system access including STARS II. FNS Handbook
                                     702 requires supervisory approval for system access; however, the level of
                                     approval is unclear. FNS developed a procedure to use Regional approval
                                     officials; however, this was not incorporated into practice. The approval
                                     evolved into a centralized approval process. Currently, FNS-674s are being
                                     approved centrally by a single authorizing official (AO) for the over
                                     700 STARS II users nationwide. However, FNS recognizes that a single
                                     approving official cannot knowledgeably assess individual needs for system
                                     access. FNS plans to have 7 Regional AO’s who will approve access requests
                                     within their regional offices and field offices.




8
    HSPD-12, effective August 2004, requires a common identification standard for Federal employees and contractors and includes the completion of
    background investigations for those who require long-term access to federally controlled facilities and/or information systems.

USDA/OIG-AUDIT No. 27501-02-Hy                                                                                                      Page 10
Recommendation 7
                   Develop and implement an automated process for system access requests and
                   approval.

                   Agency Response.

                   The Office of Information Technology is in the process of completing work
                   on an automated system for access requests and approvals for STARS. The
                   system will be rolled out to the user community no later than March 3, 2009.

                   OIG Position.

                   We agree with FNS’ proposed corrective action; however, we cannot accept
                   management decision. FNS originally agreed to implement the new system
                   by December 31, 2001. In June 2007, FNS officials told us the agency was
                   working with contractors to test the new system. To reach management
                   decision, FNS needs to provide specific implementation milestones to rollout
                   the system to the user community by March 2009.


Recommendation 8
                   Update FNS Handbook 702 to reflect changes in the STARS II approval
                   process, which implements the use of regional AO’s.

                   Agency Response.

                   Standard Operating Procedures (SOP) are being created for User Access
                   Request for all FNCS Systems. The SOP for STARS II will address the
                   approval process implementing the use of Regional Authorizing Officials.
                   Estimated completion dated June 1, 2008.

                   OIG Position.

                   We accept FNS’ management decision.




USDA/OIG-AUDIT No. 27501-02-Hy                                                       Page 11
Section 3 Contingency Planning Needs Improvement

Finding 3
                   BRSB did not update the overall contingency plan for the IT center where
                   STARS II is located. According to FNS officials, this was caused by staffing
                   shortages. As a result, FNS’ computer facilities are more susceptible to
                   damage or unplanned down time in the event of a disaster or unexpected
                   event. Without an updated contingency plan, FNS has limited assurance that
                   operations can be recovered in a timely manner.

                   NIST SP 800-34, Contingency Planning Guide for IT Systems,
                   June 2002, requires a set of plans to properly prepare response, recovery, and
                   continuity activities for disruptions affecting the organization’s IT systems.

                   BRSB provides primary support for the STARS II application. In
                   April 2007, FNS successfully completed a full recovery test of STARS II and
                   revised the application portion of the contingency plan. BRSB developed the
                   STARS II Contingency Plan as a key element of BRSB’s overall contingency
                   plan, which includes the continuity of operations plan.

                   BRSB’s overall contingency plan included an outdated system description
                   that references old equipment and platforms, an outdated damage assessment
                   team that reflects former BRSB personnel, and an outdated sequence of
                   recovery operations that references an outdated telecommunications network.
                   FNS explained that it had been short staffed for an extended period and did
                   not have an opportunity to review and update the plan. At the exit conference
                   to discuss the results of our review in January 2008, FNS officials explained
                   that the agency is still in the process of updating the BRSB contingency plan.

Recommendation 9
                   Finalize the BRSB’s overall contingency plan to update such things as system
                   descriptions, assessment team members, and the sequence of recovery
                   operations.

                   Agency Response.

                   The BRSB contingency plan is a living document and updated continually.
                   The next revision will be completed by May 1, 2008. The plan must conform
                   to all USDA Office of the Chief Information Officer templates and standards
                   in order to fulfill existing departmental requirements. These requirements
                   include: Introduction, Concept of Operations, Notification and Activation
                   Phase, Recovery Phase, Reconstitution Phase, Testing, Training and
                   Exercise, and Plan Maintenance. System Descriptions and Assessment Teams
                   are located in the Concepts of Operations Section. Operations are defined in
                   the Recovery Phase Section.

USDA/OIG-AUDIT No. 27501-02-Hy                                                         Page 12
                   OIG Position.

                   We accept FNS’ management decision.




USDA/OIG-AUDIT No. 27501-02-Hy                           Page 13
Section 4 Supervisory Review of STARS II Data Needs Improvement

Finding 4
                                       The Dallas Field Office did not adhere to established procedures for
                                       obtaining supervisory approval before authorizing stores in STARS II. This
                                       procedure provides assurance that STARS II data is accurate. In addition, the
                                       Dallas Field Office did not follow procedures for reviewing system data for
                                       significant changes. The Officer-in-Charge (OIC) cited efficiencies in having
                                       one person enter store data in STARS II and authorize the store’s approval
                                       before the OIC performs the supervisory review of the information. The OIC
                                       also stated that reviewing STARS II data for significant changes was
                                       redundant. This procedure is not redundant because it provides a second party
                                       review to ensure that only appropriate stores are authorized. As a result, FNS
                                       has reduced assurance that stores are appropriately authorized and reinstated
                                       to operate in the FSP. We identified 7 of 15 newly authorized and reinstated
                                       stores within the Dallas Field Office without documentation of supervisory
                                       approval, which places FNS at risk of allowing stores to operate in the FSP
                                       without approval.

                                       To test the processes used for entering data in STARS II and verifying data
                                       accuracy, we reviewed supporting records for retailer actions entered into
                                       STARS II by two FNS field offices. The retailer actions included such things
                                       as new authorizations, withdrawals, and disqualifications. Supporting records
                                       include hard copy case files and queries of STARS II. This review was
                                       conducted to evaluate the timeliness and accuracy of actions entered into
                                       STARS II.

                                       The OIC of the Dallas Field Office allowed Program Specialists to enter and
                                       authorize store information in STARS II. However, the STARS II User
                                       Manual, Chapter 3, requires that stores should be approved by the OIC before
                                       the stores are authorized in STARS II. 9 The user manual includes an
                                       Application Workflow Diagram that illustrates that after data entry and
                                       examination of the related documentation, the final application package
                                       should be submitted to the OIC for review and approval. For our sample of
                                       15 newly authorized and reinstated stores in the Dallas Field Office, 10 we
                                       identified 7 without documentation of supervisory approval. In response to
                                       our inquiries, the OIC explained that supervisory review and approval
                                       occurred after the Program Specialists entered and authorized store
                                       information in STARS II. The OIC explained that she considered this to be a
                                       more efficient process. The Dallas Field Office is responsible for over

9
   The procedures allow the OIC to designate a Program Specialist with the authority to approve stores in place of the OIC. The OIC of the Dallas Field
   Office did not designate someone with this authority.
10
   We randomly selected 15 newly authorized and reinstated retailers from a universe of 297 stores and a universe of 1 meal service for the period of
   October 1, 2006 through April 20, 2007. The sample consisted of 9 newly authorized stores, 1 newly authorized meal service, and 5 reinstated stores.
   We selected the greater of 5 retailers or 5 percent of each universe. If the universe consisted of fewer than 5 retailers, we selected all the retailers for
   review.

USDA/OIG-AUDIT No. 27501-02-Hy                                                                                                                  Page 14
                    5,000 stores currently authorized in STARS II, approximately 3 percent of all
                    stores authorized in FY 2007.

                    Post approval of new authorizations places FNS at risk of allowing stores to
                    operate in the FSP without approval. In March 2007, BRSB began printing
                    and mailing the authorization letters and cards the day after stores were
                    authorized in STARS II. As a result, authorization letters and cards could be
                    mailed to stores before they have been approved by the OIC. In addition,
                    STARS II sends EBT processors daily updates of store actions, including
                    newly authorized and reinstated stores. The EBT processors use the
                    information to identify the new stores that need food stamp redemption
                    equipment. We found that the OIC in the Dallas Field Office reviewed and
                    approved one new authorization 7 days after the store had been authorized in
                    STARS II. The OIC could not explain why the review took this long. In
                    contrast, the OICs in the New York City Field Office reviewed and approved
                    new stores prior to the stores being authorized in STARS II. The New York
                    City Field Office is responsible for over 8,000 currently authorized stores, or
                    approximately 5 percent of all stores authorized in FY 2007.

                    The STARS II User Manual, chapter 6, section 6.5.9, requires each OIC to
                    run the monthly Supervisory Store/Meal Service Report, for the purpose of
                    reviewing significant data changes, specifically new store authorizations, as a
                    second party to ensure that only the appropriate stores are authorized to
                    accept food stamp program benefits. The OIC for the Dallas Field Office
                    informed us that this report was not reviewed; adding that it was redundant.
                    This review is not redundant because the monthly review of the Supervisory
                    Store/Meal Service Report provides a second party review to ensure that only
                    appropriate stores are authorized. This control was put in place in response to
                    a prior OIG audit recommendation.

Recommendation 10
                    Instruct the Dallas Field Office to follow established controls for authorizing
                    stores in STARS II and reviewing system data for significant changes and
                    ensure the controls established in the STARS II User Manual are followed.

                    Agency Response.

                    On February 29, 2008, FNS forwarded a reminder of proper procedures to the
                    Southwest Regional Office (SWRO) Acting Director of Field Operations.
                    The agency indicated that it had reviewed the draft audit report and explained
                    that the purpose of the audit was to assess whether FNS properly documented
                    and accredited the STARS II application and instituted the necessary controls
                    to ensure that data in the system were valid, complete, and accurately
                    processed.



USDA/OIG-AUDIT No. 27501-02-Hy                                                           Page 15
                   FNS specified that the report included information regarding the lack of
                   adherence of the Dallas Field Office to established procedures for obtaining
                   supervisory approval before authorizing stores in STARS II. FNS clarified
                   that the purpose of its memorandum was to inform the SWRO of this finding
                   and to request that the Field Office Director remind all of the OIC’s,
                   particularly the OIC of the Dallas Field Office, that it is imperative that
                   established controls for authorizing stores in STARS II and reviewing system
                   data for significant changes be completed. FNS reiterated that Section 6.5.8
                   of the STARS II User Manual requires that each OIC run the monthly
                   Supervisory Store/Meal Service Report (253-L) for the purpose of reviewing
                   significant data changes, specifically new store authorizations, as a second
                   party to ensure that only the appropriate stores are authorized to accept
                   program benefits. FNS also reminded them that this control was put in place
                   in response to a prior OIG audit recommendation. As specified in the STARS
                   II User Manual, this report is mandated and is required to be run by each OIC
                   by the 15th of each month.

                   OIG Position.

                   We agree with FNS’ corrective action; however, to reach management
                   decision, FNS needs to describe how it will ensure controls established in the
                   STARS II User Manual are followed.




USDA/OIG-AUDIT No. 27501-02-Hy                                                         Page 16
Scope and Methodology
                   Our review was performed to assess whether the STARS II has been properly
                   documented and accredited; determine if application controls assure that data
                   are valid, complete, and accurately processed; and determine if STARS II
                   meets the security requirements of OMB Circular No. A-130, Management of
                   Federal Information Resources and applicable regulations. Our reviewed
                   covered STARS II operations in FY 2007; however, system documentation
                   and related activities from prior years were reviewed as needed.

                   We performed onsite fieldwork at FNS headquarters in Alexandria, Virginia;
                   the BRSB in Minneapolis, Minnesota; and FNS field offices in New York,
                   New York, and Dallas, Texas. To accomplish our objectives, we did the
                   following:

                   •   Interviewed FNS officials responsible for managing STARS II at the
                       BRSB in Minneapolis, Minnesota (the primary computer facility) and
                       FNS headquarters in Alexandria, Virginia (the backup computer facility).

                   •   Reviewed agency, Departmental, and other federally mandated IT
                       security polices and procedures.

                   •   Interviewed FNS officials responsible for entering store authorization
                       data at field offices in New York, New York and Dallas, Texas.

                   •   Performed testing of the STARS II to ensure data were valid, complete,
                       and accurate. This included reviewing documentation to support updates
                       to store authorizations and daily transmission of this data between
                       STARS II and EBT retailers. We also validated daily redemption data
                       sent from EBT retailers to STARS II.

                   •   Performed testing of STARS II to ensure compliance with security
                       requirements for such things as physical security, access to systems, and
                       encryption.

                   In FY 2006, STARS II tracked $30 billion in food stamp redemption activity.
                   STARS II currently manages over 160,000 authorized FSP retailers. To
                   accomplish our work, we visited the New York City and Dallas Field Offices.
                   We selected these offices for review based on the number of authorized
                   stores they managed for FY 2007. The New York City Field Office managed
                   over 8,000 currently authorized stores, or approximately 5 percent of all
                   stores authorized in FY 2007. The Dallas Field Office managed over
                   5,000 stores, or 3 percent of all stores authorized in FY 2007.


USDA/OIG-AUDIT No. 27501-02-Hy                                                        Page 17
                   Audit fieldwork was performed from January to August 2007. We conducted
                   this performance audit in accordance with Government Auditing Standards.
                   Those standards require that we plan and perform the audit to obtain
                   sufficient, appropriate evidence to provide a reasonable basis for our findings
                   and conclusions based on our audit objectives. We believe that the evidence
                   obtained provides a reasonable basis for our findings and conclusions based
                   on our audit objectives.




USDA/OIG-AUDIT No. 27501-02-Hy                                                          Page 18
Exhibit A – Agency Response
                                 Exhibit A – Page 1 of 5




USDA/OIG-AUDIT No. 27501-02-Hy              Page 19
                                 Exhibit A – Page 2 of 5




USDA/OIG-AUDIT No. 27501-02-Hy              Page 20
                                 Exhibit A – Page 3 of 5




USDA/OIG-AUDIT No. 27501-02-Hy              Page 21
                                 Exhibit A – Page 4 of 5




USDA/OIG-AUDIT No. 27501-02-Hy              Page 22
Exhibit A – Page 5 of 5
